BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Reply Brief of Petitioner in 20-507, Tony
Mays, Warden v. Anthony Darrell Dugard Hines, was
sent via Next Day Service to the U.S. Supreme Court,
and 3 copies were sent via Next Day and e-mail service
to the following parties listed below, this 27th day of
January, 2021:
James Othel Martin III
Office of the Federal Public Defender
Middle District of Tennessee
810 Broadway, Suite 200
Nashville, TN 37203
(615) 736-5047
Jay_Martin@fd.org

Counsel for Respondent
John H. Bledsoe
Deputy Attorney General
Counsel of Record
Office of the Attorney General
P.O. Box 20207
Nashville, TN 37202
(615) 741-4351
john. bledsoe@ag.tn. gov

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
, www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on January 27, 2021.

Donna J. Wol
Becker Gallagher Legal ublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date:

~

cf& n. ~&v

Notary Public
[seal]

J f , Jo d- /
\J

